          REVIEW OF SELECTED SMALL BUSINESS PROCUREMENTS 


                                    REPORT NUMBER 5-16 


                                          MARCH 8, 2005





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of the Office of Inspector General.
                   U.S. SMALL BUSINESS ADMINISTRATION 

                       OFFICE OF INSPECTOR GENERAL 

                           WASHINGTON, D.C. 20416



                                                                 ADVISORY REPORT

                                                            Issue Date: March 8, 2005
                                                            Report Number: 5-16



TO:           Allegra F. McCullough
              Associate Deputy Administrator for Government
               Contracting and Business Development


FROM: 	       Robert G. Seabrooks
              Assistant Inspector General for Auditing

SUBJECT: 	    Review of Selected Small Business Procurements

       In a letter dated February 19, 2003, the Office of Inspector General (OIG)
informed the Chair of the United States Senate Committee on Small Business and
Entrepreneurship that we would review the propriety of small business certifications and
whether certain contractors who received small business contracts were indeed small.
The review stemmed from complaints made by a member of the small business
community. Our review did not include procurements by the Small Business
Administration (SBA). This report presents the results of our review and is being
forwarded to the Chairs and Ranking Members of the Senate Committee on Small
Business and Entrepreneurship and the House of Representatives Committee on Small
Business.


                                   BACKGROUND

        The Federal Acquisition Streamlining Act of 1994 (FASA) codified the authority
of agencies to enter into task or delivery order contracts, known as multiple award
contracts (MAC), with multiple firms for the same or similar products. The Clinger-
Cohen Act of 1996 provided for the use of multi-agency contracts and government-wide
acquisition contracts (GWAC). The use of these contracts can speed up the procurement
process as agencies can order services and supplies on a regular basis without having to
establish new contracts for each order. Companies can be listed as small businesses on
these contracts if they self-certify that they are small. Ordering from firms that are
classified as small on MACs assists agencies in meeting their small business procurement
goals.
        In its May 2003 report, “Reporting of Small Business Contract Awards Does Not
Reflect Current Business Size,” the Government Accountability Office (GAO) found that
companies no longer considered small were reported in the Federal Procurement Data
System (FPDS) as receiving small business contracts. GAO determined the primary
reason for large companies being reported as small businesses on these contracts was due
to regulations that allowed a company to be considered small over the life of a MAC,
which can be up to 20 years, even if the company had grown into a large business,
merged with another company, or been acquired by a large company. As a result, an
order placed against a MAC would be reported as a small business award, even if the
business was no longer small at the time of the order.

        The General Services Administration (GSA) now requires companies receiving
Federal Supply Schedule Multiple Award Schedule (FSS MAS) Program contracts and
all other multiple award-type contracts to re-certify their business size when the
government exercises options to extend such contracts, which generally occurs every 5
years. This change will reduce the amount of time large businesses will be able to
receive contracts intended for small businesses. Additionally, SBA issued a Final Rule
(effective December 21, 2004) requiring a new size self-certification when contracts are
novated due to the contractor being purchased by another company in order for the
agency to count subsequent award options or orders from the contract towards its small
business goals.

        Starting in September 2002, we received complaints stating that large businesses
were obtaining contracts intended for small businesses. The initial complaints focused on
four companies. According to FPDS, from October 1, 2000 through June 30, 2002, two
of the four companies were awarded a total of seven new1 small business set-aside
contracts. Additionally, the four companies collectively received orders under seven
MACs. A subsequent complaint received during the course of the audit focused on a
MAC awarded to a fifth company. All five companies were large businesses at the time
of the complaints.


                                   OBJECTIVES AND SCOPE

        Our review objectives were to determine if certain large companies 1) were
improperly awarded new small business set-aside contracts, and 2) met the small business
size standards when they were originally awarded MACs.

        To accomplish objective one, we reviewed FPDS data for the four companies
included in the initial complaints to identify all new contracts reported as small business
set-asides from Fiscal Year (FY) 2001 through the third quarter of FY 2002. We
obtained information from the procuring agencies for the seven identified new small
business set-aside contracts to determine if improper certifications were made to obtain

1
 “New” is used to differentiate from modifications to existing contracts or orders stemming from multiple
award contracts.


                                                    2

these contracts. We also requested a size determination from SBA’s Office of
Government Contracting (GC Office) for one of the set-aside contracts.

        To accomplish objective two, we reviewed copies of the certifications and
representations made by each of the five companies to determine the small business
status of the MACs, specifically FSS MAS contracts and GWACs. We spoke with GSA
officials and appropriate company officials, as necessary. We obtained documentation to
support the size certifications from each company and obtained size determinations from
SBA’s GC Office for two of the eight MACs.


                                      SUMMARY

       Although FPDS data identified seven new small business set-aside contracts
awarded to two of the four companies that were the subject of the initial complaints, we
could only document that one of the seven was actually a new small business set-aside
contract. For this contract, the company improperly certified as a small business.
Regarding the remaining six contracts, FPDS data was inaccurate or could not be
confirmed because the procuring agency no longer had complete records.

        Two of the eight MACs we reviewed were awarded to companies that were not
small at the time they certified they were small, while the remaining six MACs were
awarded to small companies. For one of the two MACs awarded to a company that was
not small, the company made statements in its offer to obtain the award that showed that
it was other than small. The second MAC was awarded based on a false certification that
the company was a small business manufacturer and regular dealer.

       This report contains no recommendations. It is being provided for your
information.

One Small Business Set-Aside Contract Was Improperly Awarded

       FPDS data identified seven new small business set-aside contracts awarded to two
companies. However, we could only confirm that one of the seven contracts was actually
a new small business set-aside, and in that instance, the company made an improper small
business self-certification to receive the contract. For the remaining six contracts, FPDS
data was inaccurate or could not be confirmed.

       Concerning the contract with the improper small business self-certification, we
requested a size determination from the SBA’s GC Office, which determined that the
company was not small at the time it so certified. This matter is still under review.

       Through inquiries with the procuring agencies, we found that we could not
confirm that the remaining six contracts identified in FPDS as new small business set-
aside contracts were, in fact, new small business set-aside contracts. According to a
procuring agency official, two of the six were orders from two GWACs. For three of the



                                            3

remaining four contracts, the procuring agency no longer had its procurement files, but
we were advised that other listings maintained by the agency reflected that they were not
small business set-asides. For the fourth contract, the procuring agency could not provide
any record of award of the contract.

Multiple Award Contracts Issued Based on Improper Certifications

         For one of the eight MACs we reviewed, the company receiving the award
improperly self-certified as a small business to obtain the contract. At the time of its self-
certification, however, the company in question clearly stated in its offer that it was an
affiliate of a known large company. Applying SBA’s size regulations to this case, the
company’s affiliation with a large company should have precluded it from being small
for Federal contracts. Thus, GSA should not have classified this MAC as a small
business contract. Moreover, during our review, the company could not provide
documentation to support its small business status. As a result of our audit work, the
company directed GSA to change its status from small to large for this FSS MAS
contract. We are providing a copy of this report to the GSA Office of Inspector General
for possible review.

        A second MAC was awarded based on a false certification. The company
receiving the award self-certified that it was a small business, a manufacturer and regular
dealer. However, SBA concluded in a size determination that an affiliate of the company
was the actual manufacturer and that the company, as a non-manufacturer, must meet the
small business size standard for non-manufacturers. The company and its affiliates also
exceeded the small business size standard for a regular dealer. This matter is still under
review.

         The other six MACs reviewed were awarded properly and the corresponding
companies were small at the time they certified they were small, which was between
1995 and 1997. To reach this conclusion for five of the MACs, we reviewed
documentation that supported the companies’ size at the time of their initial certification.
These companies were clearly small at the time of their awards based on size standard
regulations established by SBA. To determine if the sixth MAC was properly awarded,
we requested a size determination from SBA’s GC Office because the company’s size
status was questionable at the time of its self-certification and outside expertise was
needed to assist in our review. SBA’s GC Office concluded that the company was small
at the time of the award and, accordingly, we conclude that the MAC was properly
awarded.

       The OIG addressed the issue of companies with MACs being considered small for
lengthy time periods in Report # 5-14, “SBA Small Business Procurement Awards Are
Not Always Going to Small Businesses,” issued February 24, 2005.

                                         *****



                                              4

       The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. Should you or your staff have any questions, please contact
Robert G. Hultberg, Director, Business Development Programs Group at (202) 205-
[FOIA Ex. 2].

Attachment




                                            5

                                                                                                              Attachment 1 


                                          REPORT DISTRIBUTION 


Recipient                                                                                                    No. of Copies      



Administrator ............................................................................................................1 


Deputy Administrator ...............................................................................................1 


Deputy Associate Deputy Administrator for Government 

Contracting and Business Development ...................................................................1 


Office of the Chief Financial Officer 

Attention: Jeffrey Brown .........................................................................................1 


General Counsel ........................................................................................................3 


U.S. Government Accountability Office ..................................................................2 


Assistant Inspector General for Auditing 

General Services Administration ...............................................................................1 

